                           CLOSEOUT FOR M-92060022



of a geological outcrop; 2) deletion of data; 3) fabrication of data; 4) plagiarism of a map; 5)
misinterpretation of a fault angle; 6 ) misappropriation of credit for a previously known fault;
7) omission of a locality for a metamorphic rock discussed in a publication: and 8)




       OIG reviewed the NSF proposals, the information provided by the complainant,
relevant maps and journal articles, and obtained expert advice in field geology and tectonics.
OIG contacted the complainant several times to elicit more detailed information.

        The first allegation involved the misrepresentation of
The subject described t h e u t c r o p as representing
the atea he mapped; the complainant alleged that the
particular "major fault." Careful review of the
t h i s outcrop resulted in three supportable geologic interpretations, two of which
idenWied this outcrop as representing the "major fault." Because all three interpretations
were reasonable, OIG concluded this allegation was without substance; different supportable
interpretations of the same observations are not misconduct in science.

       The second allegation involved the deletion of a d a t u m measured from
the outcrop in hte-sed                    in                    The complainant claimed that
when he found this outcrop and
other data representing directions for the                                          the
subject. The complainant claimed that deletion of this point created a misleading sense of
data consistency.

        OIG determined that field geologists exercise some judgment based on personal
experience when measuring field data. OIG notes, for example, that if the subject
interpreted this fault as a splay fault (a fault that is part of the main fault but angles away
from it) and not as a significant directional representation of the "major fault," and if the
exposed fault surface is small or poor relative to other observed surfaces in the area, he
might reasonably exclude it from the data set: Setting aside the uncertainty with respect to
location of the outcrop and the complainant's fault-striation measurement, the exclusion of
this potential datum, if the subject ever measured it in the first place, was within the realm of
his personal judgment and therefore OIG concluded that this allegation had no substance.

       The third allegation involved fabrication of data to represent outcrops that did not
 exist. It was determined that the complainant was searching for outcrops to m e a s u r e
               tions along "relevant faults. " In so doing, he was inferring that the "relevant
=ex&nsions                of the "major fault," in the subject's map area. When the
 complainant f o h d no measurable outcrops along these relevant faults, he assumed the
 outcrop data h d k e n fabricated. Another field geologist who walked the "major fault" in
 the subject's map area discovered measurable-                  exposures; these measurements
 agreed with the subject's published observations. This allegation involves differences in
 interpretation of the character and extent of a fault. This is not misconduct in science.

        The fourth allegation involved alleged plagiarism of a geologic map from an earlier
published map including the alleged a                                               t the wrong
orientation. OIG observed that the outcrop - -patterns between the two maps were different. It
also determined that the placemen                            on the map was an interpretive
issue based on the subject's view of the geology of the map area. Since the maps were not
identical and the placement         -                 was an interpretative issue, OIG
concluded that this allegation lacked substance.

        OIG determined that the fifth and sixth alleeations pertaining to misinterpreting an
angle of a fault plane and misappropriating credit for a known fault do not fall within the
area of misconduct in science. These involve differences arising from equally supportable
interpretations and disagreements over priority-of-discovery, respectively, and should be
resolved by the scientific community in the literature.

        The seventh alleeation pertaining to an omission of a locality in a publication was
 determined to be within the author's discretion and not misconduct.

        The eighth allegation concerning misrepresentation of research support was unrelated
 to any NSF proposal or award and therefore was not considered.

        The OIG closed this case for lack of substance.
                                         +.&.(
Concurrence:



Staff Scientist, Oversight                Assistant Inspector General for Oversight

D&L ::MA                 ; 2/d'/f~
       ''
Donald E. Buzzelli
Deputy Assistant Inspector General for
Oversight

0
-
philip L. Sunshine
Deputy Inspector General

cc:    Signatories
       Inspector General
